App. 1
IN THE COURT OF APPEALS OF THE
STATE OF WASHINGTON
DIVISION ONE
In the Matter of the Estate of

No. 77740-8-I

MARGARET RAICHOUDHURY

UNPUBLISHED
OPINION
FILED:
February 25, 2019

APPELWICK, C.J.—Khashon Haselrig argues the
trial court erred when it determined he violated a no
contest clause in his grandmother's will. As a result,
he was disqualified from inheriting from her estate.
We affirm.
FACTS
In July 2015, Margaret Rai-Choudhury met with
attorney Steve Avery to prepare a will and other estate
documents. She was 82 years old and recently had
filed for dissolution from her husband, Prosenjit RaiChoudhury. Margaret executed her will on July 21,
2015. It was attested by two witnesses. Both witnesses
declared that Margaret appeared to be of sound mind
and under no duress or undue influence.
The will declared that it was Margaret's intention
to leave none of her property to Prosenjit or to their
only child, Indira Rai-Choudhury. Instead, she made a
specific bequest of $10,000 to Linda Borland. Of the
probate estate residue, she left half to the University

App. 2
of British Columbia and half in trust for her grandson,
Khashon Haselrig. She also included a no contest provision in her will, whereby a beneficiary who contests
the will loses his or her interest in the estate. Margaret
named Stephanie Inslee, a professional guardian, as
her personal representative. Margaret had no later
contact with Avery to modify or revoke her will or other
estate planning documents. The combined value of her
assets was approximately $1,877,000. The bulk of her
assets were nonprobate assets.
Margaret died on November 25, 2016. Inslee arranged for the body to be cremated, and the cremation
was performed on December 6. The same day a neighbor notified Indira of Margaret's death. Khashon was
at dinner with Indira when she found out. Indira called
Avery on December 8, 2016. Avery informed her that
he did not have the original will and would be filing the
probate soon. Upset about the cremation and perceiving inaction on the estate, she began e-mailing with
Avery and Inslee.
Unable to locate Margaret's original will, Avery
filed a copy with Whatcom County Superior Court. He
and the two witnesses to the will attested that it was
a true and correct copy. On December 19, 2016, the
court admitted the will to probate and appointed
Inslee as personal representative.
On January 4, 2017, Avery e-mailed Indira asking
for Khashon's address and telephone number. Indira
responded that Khashon lived with her and that she
would show him the e-mail. The will and probate

App. 3
documents were sent to Khashon by e-mail on January
7 and by mail on January 18, 2017.
On January 25, Khashon filed a motion for removal of the personal representative, appointment of a
new personal representative, and revocation of testate
probate. He argued that the will copy should not have
been admitted to probate. He argued Inslee violated
RCW 11.20.070, because she failed to prove that the
will was not intentionally revoked and failed to provide
required notice to interested parties before admitting
the will to probate. Indira joined the motion.
At the hearing on February 10, 2017, Khashon's
counsel argued that Inslee "need [s] to prove that she
didn't intend to revoke her will. The will is lost, the law
is clear on it, it's presumed to be revoked." Khashon's
counsel further argued that "according, again, to the
statute and to case law . . . Khashon was entitled to
notice[ prior to admitting the lost will to probate] so
that they can bring to the court the issue that there
was a lost will." The court denied the motion. The order
stated that "[n]o evidence has been submitted to this
Court that the . . . Will was lost or destroyed under circumstances such that the loss or destruction had the
effect of revoking the will. . . . [It] should be admitted
to probate." Khashon did not request reconsideration
or appeal this order.
On June 19, 2017, Khashon filed a "motion to void
fraudulent admission of copy will, removal of personal
representative, obtain full accounting and impose
sanctions." (Formatting omitted.) On August 22, 2017,

App. 4
he filed a "motion to strike defendants' responses and
receive default judgment in favor of plaintiff's motion
to void fraudulent admission of copy will, removal of
personal representative, obtain full accounting and impose sanctions." (Formatting omitted.) On August 25,
2017, the court denied the relief that Khashon sought
in both motions, because "[t]hat issue was raised earlier in front of the Court at the appropriate time, and
the Court made findings with respect to . . . the issues
related to notice." Khashon moved for discretionary review, which was denied.
On September 20, 2017, Inslee filed a motion for
judicial determination, arguing that Khashon's actions
violate the no contest provision in Margaret's will and
bar him from receiving any property from her estate.
The trial court granted Inslee's motion for judicial determination on November 3, 2017, barring Khashon
from inheriting from Margaret's estate. Khashon appeals.
DISCUSSION
Khashon appeals the judicial determination barring
him from inheriting under Margaret's will. Khashon
also argues that the trial court erred in admitting the
will to probate under RCW 11.20.070. He contends
that his probate court litigation was procedural, so it
did not violate the will's no contest provision.
"[P]roceedings where a will is being challenged are
equitable in nature and are reviewed de novo upon the
entire record." In re Estate of Black, 153 Wn.2d 152,

App. 5
161, 102 P.3d 796 (2004). An interested person may
contest the validity of a probated will within four
months following the probate by filing a will contest
petition with the court. RCW 11.24.010. Generally, no
contest clauses in wills are enforceable in Washington.
In re Estate of Mumby, 97 Wn. App. 385, 393, 982 P.2d
1219 (1999). The no contest provision in Margaret's
will is expansive:
If a beneficiary named under this Will or one
of my beneficiaries at law shall in any manner
contest or attack this Will or any of its provisions, then in such event any share or interest
in my estate given or passing to such contestant is hereby revoked. . . . This paragraph
shall not be construed to apply to any action
brought in good faith to interpret a provision
of this Will which may be unclear or ambiguous.
Khashon's argument that RCW 11.20.070 was
violated and that the will was improperly admitted to
probate was considered by the trial court and rejected
in its February 10, 2017 order. "[I]f a party contests the
admission of the will to probate, generally that same
party may not file a later will contest. The party's only
remedy is to appeal the order admitting the will."
Black, 153 Wn.2d at 170. Khashon did not appeal that
order. It became final. "A final order from which no
appeal is taken becomes the law of the case." Tornetta
v. Allstate Ins. Co., 94 Wn. App. 803, 809, 973 P.2d 8
(1999). We therefore decline to consider Khashon's

App. 6
arguments that the will was improperly admitted to
probate.1
On June 19, 2017, Khason filed a "motion to void
fraudulent admission of copy will, removal of personal
representative, obtain full accounting and impose
sanctions." (Formatting omitted.) Khashon argues his
pleadings were merely procedural and not a will contest.
"A court may treat a motion as a will contest, even
where the petitioner styles it otherwise." In re Estate
of Finch, 172 Wn. App. 156, 162, 294 P.3d 1 (2012). In
Finch, a personal representative sued a physician for
medical malpractice. Id. at 159. The physician moved
to dismiss the suit on the basis that the will appointing
the personal representative was fraudulent, and was
granted leave to intervene in the probate. Id. at 159,
161. This court reversed the order granting the physician leave to intervene, reasoning that the physician
lacked standing to bring a will contest. Id. at 167.
"These allegations—that Finch lacked the capacity to
make a will . . . that he had not signed the will, and
that the will was not properly witnessed—are precisely
what a court considers in a will contest under RCW
11.24.010." Id. at 163. Khashon's pleadings were a
1 Khashon makes several additional assignments of error,
but fails to support those with argument in the brief. "An appellate brief should contain argument in support of every issue presented for review, including citations to legal authority and
references to the relevant parts of the record." Farmer v. Davis,
161 Wn. App. 420, 432, 250 P.3d 138 (2011). "Lacking either, we
will not consider this issue." Id.

App. 7
challenge to the admission and validity of the will. Under Finch, Khashon cannot circumvent the no contest
provision by styling his attack on the validity of the
will as a procedural motion.
Khashon cites In re Estate of Little, 127 Wn. App.
915, 920, 113 P.3d 505 (2005) in support of his argument that, he did not initiate a will contest. In Little,
unnamed heirs who were not notified of the decedent's
death moved the court to appoint a new administrator
six years after the estate was closed. Id. at 918-19. The
appellate court declined to apply the limitations period
in the will contest statutes, reasoning that this action
was more akin to the law of vacating judgments. Id.
("The heirs have not yet brought a will contest and the
trial court has therefore had no occasion to apply the
law that governs will contests."). But, this case is more
like Finch than Little. Like the physician in Finch,
Khashon sought to invalidate a lost will prior to the
closure of probate, so his motion must be considered a
will contest regardless of its label.2

2 Khashon also cites three Washington cases that examine
whether no contest clauses are operable where an individual
brings an action in good faith, or on public policy grounds: In re
Estate Chappell, 127 Wash. 638, 221 P. 336 (1923); In re Estate
of Kubick, 9 Wn. App. 413, 419, 513 P.2d 76 (1973); In re Estate
of Primiani, No. 34200-0-III, slip op. at 11-15 (Wash. Ct. App.
May 2, 2017) (unpublished), http://www.courts.wa.gov/opinions/pdf/
342000_unp.pdf. But, Khashon does not make a discernable argument why he falls within safe harbor provision of the no contest
clause, nor does he propose a public policy ground on which he
attacks the will.

App. 8
The trial court did not err in concluding that
that "[t]he pleadings filed by, and arguments made
by, Khashon Haselrig, repeatedly contested and attempted to invalidate the Decedent's Last Will and
Testament. . . . [They] violate the No Contest provision
of Decedent's Last Will." Khashon makes no allegation
that the will contest provision is unclear or ambiguous.
We affirm.
/s/ Appelwick, C.J.
WE CONCUR:
/s/ Andrus, J.

/s/ Smith, J.

APPENDIX B

App. 9
IN THE SUPERIOR COURT OF WASHINGTON
FOR WHATCOM COUNTY
IN RE THE ESTATE OF: CAUSE NO:
16-4-00659-4
MARGARET RAICHOUDHURY
Deceased.

ORDER DENYING
RELIEF REQUESTED
IN HASELRIG'S
PLEADINGS TITLED:
"ADDENDUM TO MOTION TO VOID
FRAUDULENT ADMISSION OF COPY WILL,
REMOVAL OF PERSONAL REPRESENTATIVE, OBTAIN FULL
ACCOUNTING AND
IMPOSE SANCTIONS,"
AND
"MOTION TO STRIKE
DEFENDANTS' RESPONSES AND RECEIVE DEFAULT
JUDGMENT IN
FAVOR OF PLAINTIFF'S MOTION TO
VOID . . . "
(Filed Aug. 25, 2017)

THIS MATTER having come before the Court on
Khashon Haselrig's above pleadings, one filed on July
19, 2017, Dkt. #58, and the second filed on August 22,
2017, Dkt #67. Khashon Haselrig (Haselrig) appearing
pro se; and Stephanie Inslee, Personal Representative

App. 10
of the Estate of Margaret Rai-Choudhury, appearing
through her attorneys, Shepherd and Allen; and, the
Court having reviewed the pleadings and papers filed
in the above captioned matter, including those filed in
support of, and in response to, the motion submitted by
Haselrig, having decided this matter with oral argument, and being otherwise fully informed,
AND THE COURT, after full consideration of the
factual and legal issues raised by the two pleadings,
makes and enters the following Order:
Haselrig's above two pleadings contain the
wrong caption.
Haselrig is not the plaintiff in this probate action.
[Stephanie Inslee,] Doug Shepherd, Heather
Shepherd, Bethany Allen and [Steven] Avery are not
defendants in this probate action.
Washington law does not allow Haselrig to
make any due process claims against Stephanie Inslee,
Doug Shepherd, Heather Shepherd, Bethany Allen or
Steven Avery in this matter.
If Hasclrig's [pleadings] related to "due pro
cess" are directed to this Court, the Court specifically
finds as follows and by this Order dismissed any and
all due process claims:
A. Notice reasonably calculated, under all
the circumstances to apprise Haselrig of
t-his-pr-eb-at-e-and-the-t.er-fae-an€1-eeftditiene

App. 11
ef-his—grandmethe
Hasclrig;
The notices given afforded Hasclrig the
opportunity to present his objections and
arguments made in the above pleadings
in a timely manner and to be fully heard,
argued and decided by this Court previ
ously, on February 10, 2017; and
Even assuming defective notice, and no
opportunity to be heard, the Order en
tercd by this Court on February 10, 2017,
did not deprive Hasclrig of life, liberty or
property.
Washington procedural law, including CR 6
and CR 59(b), does not allow this Court to reconsider
the Order of February 10, 2017, as the above pleadings
were filed and served more than ten (10) days after
February 10, 2017.
Haselrig SHALL NOT file any more pleadings
in this matter, listing himself as a plaintiff and/or
Doug Shepherd, Heather Shepherd, Bethany Allen and
[Steven] Seven Avery as defendants.
IT IS HEREBY ORDERED, ADJUDGED AND
DECREED THAT:
Any relief requested in the above pleadings is
hereby denied.

App. 12
DONE IN OPEN COURT THIS 25 day of August
2017.
/s/ Raquel Montoya L
HONORABLE JUDGE
MONTOYA-LEWIS
Presented by:
SHEPHERD AND ALLEN
Is/ Douglas R. Shepherd
Douglas R. Shepherd, WSBA #9514
Bethany C. Allen, WSBA #41180
Heather C. Shepherd, WSBA #51127
Of Attorneys for Stephanie Inslee,
as Personal Representative of the
Estate of Margaret Rai-Choudhury
Copy Received:

Khashon Haselrig,
Beneficiary Pro Se

App. 13
THE SUPREME COURT OF WASHINGTON
In the Matter of the Estate of: )
No. 97124-2
)
MARGARET RAIORDER
)
CHOUDHURY
)
Court of Appeals
)
No. 77740-8-I
)
) (Filed Sep. 4, 2019)
Department I of the Court, composed of Chief Justice Fairhurst and Justices Johnson, Owens, Wiggins
and Gordon McCloud, considered at its September 3,
2019, Motion Calendar whether review should be
granted pursuant to RAP 13.4(b) and unanimously
agreed that the following order be entered.
IT IS ORDERED:
That the petition for review is denied. The Respondent's request for attorney fees is denied. The Petitioner's motion for extension of time to file a reply to
the answer to the petition for review is also denied.
DATED at Olympia, Washington, this 4th day of
September, 2019.
For the Court
/s/ Fairhurst, C.J.
CHIEF JUSTICE

App. 14
IN THE SUPERIOR COURT OF WASHINGTON
FOR WHATCOM COUNTY
IN RE THE ESTATE OF: CAUSE NO:
16-4-00659-4
MARGARET RAIORDER ON JUDICIAL
CHOUDHURY
DETERMINATION OF
Deceased.
WILL CONTEST
(Filed Nov. 3, 2017)
This matter, having come before the Court on the
Personal Representative's Motion for Judicial Determination; Personal Representative Stephanie Inslee
appearing by and through her attorneys, Shepherd
and Allen; Khashon Haselrig appearing pro se; and the
Court having reviewed the pleadings and papers filed
herein, and exhibits attached thereto, in support of the
motion and against the motion, and the Court having
heard oral argument of counsel and being otherwise
fully informed;
AND THE COURT, after full consideration of the
factual and legal issues raised by the pleadings, makes
and enters the following Order:
The pleadings filed by, and arguments made
by, Khashon Haselrig, repeatedly contested and attempted to invalidate the Decedent's Last Will and
Testament.
Margaret Rai-Choudhury's Last Will and
Testament, contained a No Contest Clause.

App. 15
The pleadings filed by, and arguments made
by, Khashon Haselrig, violate the No Contest provision
of Decedent's Last Will.
Pursuant to the No Contest Clause, Khashon
Haselrig is barred from receiving any property belonging to Decedent's estate.
IT IS HEREBY ORDERED, ADJUDGED AND
DECREED THAT:
The Personal Representative's Motion for Judicial
Determination is hereby granted.
DONE IN OPEN COURT THIS 3 day of November 2017.
/s/ Raquel Montoya L
HONORABLE JUDGE
MONTOYA-LEWIS
Presented by:
SHEPHERD AND ALLEN
/s/ Douglas R. Shepherd
Douglas R. Shepherd, WSBA #9514
Bethany C. Allen, WSBA #41180
Heather C. Shepherd, WSBA #51127
Of Attorneys for Stephanie Inslee,
as Personal Representative of the
Estate of Margaret Rai-Choudhury

App. 16
Copy Received:

Khashon Haselrig,
Beneficiary Pro Se

App. 17
FILED IN OPEN COURT
2-10-2017
WHATCOM COUNTY CLERK
By
Deputy
IN THE SUPERIOR COURT OF WASHINGTON
FOR WHATCOM COUNTY

IN RE THE ESTATE OF:
MARGARET RAICHOUDHURY,
Deceased.

CAUSE NO:
16-4-00659-4
ORDER DENYING
MOTION FOR
REMOVAL OF PR
OF ESTATE; APPOINT
NEW PR; REVOCATION
OF TESTATE PROBATE;
AND ISSUE ORDER

THIS MATTER having come before the Court on
Khashon Haselrig's Motion for Removal of PR of Estate; Appoint New PR; Revocation of Testate Probate;
and Issue Order, by and through his attorney of record,
Lisa Saar; Stephanie Inslee, Personal Representative
of the Estate of Margaret Rai-Choudhury, appearing
through her attorneys, Shepherd and Allen; Indira
Rai-Choudhury, appearing through her attorney Carrie Coppinger-Carter; and the Court having reviewed
the pleadings and papers filed in the above captioned
matter, including those filed in support of, and in response to, the motion submitted by Haselrig, having

App. 18
decided this matter with oral argument, and being otherwise fully informed,
AND THE COURT HAVING FOUND, after full
consideration of the evidence submitted by the parties:
01. Proof of the execution and validity, including
its contents and authenticity, of the July 21, 2015, Last
Will and Testament of Margaret Rai-Choudhury, has
been proven by clear, cogent, and convincing evidence,
by and through the following:
A copy of the Last Will and Testament of
Margaret Rai-Choudhury, which was executed consistent with RCW 11.20.020;
Affidavit of Attesting Witness (Steve
Avery), filed December 19, 2016;
Affidavit of Attesting Witness (Melissa
Sophusson), filed December 19, 2016;
Affidavit of Attesting Witness (Amanda
Dykstra), filed December 19, 2016;
Declaration of Steve Avery, filed February
7, 2017;
Second Affidavit of Amanda Dykstra — Attesting Witness, filed February 7, 2017;
and,
Second Affidavit of Melissa Sophusson —
Attesting Witness, filed February 7, 2017.
02. No evidence has been submitted to this Court
that the July 21, 2015, Will was lost or destroyed under

App. 19
circumstances such that the loss or destruction had the
effect of revoking the will.
The July 21, 2015, Last Will and Testament
of Margaret Rai-Choudhury should be admitted to probate.
The Letters Testamentary, granted to Stephanie Inslee on December 19, 2016, should not be revoked.
There is no cause shown for removal of
Stephanie Inslee as Personal Representative of the Estate.
The further relief requested in the motion
should be denied.
IT IS HEREBY ORDERED, ADJUDGED AND DECREED THAT:
Haselrig's Motion for Removal of PR of Estate, Appoint New PR; Revocation of Testate Probate; and Issue Order, be, and hereby is, denied.
DONE IN OPEN COURT THIS 10 day of February 2017.
/s/ Raquel Montoya-Lewis
HONORABLE MONTOYA-LEWIS

App. 20
Presented by:
SHEPHERD AND ALLEN
/s/ Douglas R. Shepherd
Douglas R. Shepherd, WSBA #9514
Bethany C. Allen, WSBA #41180
Heather C. Shepherd, WSBA #51127
Of Attorneys for Stephanie Inslee, as Personal
Representative of the Estate of Margaret
Rai-Choudhury
Copy Received:
LAW OFFICE OF LISA SAAR, PLLC
/s/ Lisa M. Saar
Lisa Saar, WSBA #46494
Of Attorneys for Khashon Haselrig
Copy Received:
COPPINGER CARTER, P.S.
/s/ Carrie Coppinger Carter
Carrie Coppinger Carter, WSBA 28817
Of Attorneys for Indira Rai-Choudhury

APPENDIX F

App. 21
IN THE SUPERIOR COURT OF
THE STATE OF WASHINGTON IN AND
FOR WHATCOM COUNTY

In re the Estate of:

No. 16 4 00659 4

MARGARET RAICHOUDHURY,

ORDER:
APPOINTING
PERSONAL
REPRESENTATIVE;
ADJUDICATING
ESTATE TO BE
SOLVENT; AND
DIRECTING ADMINISTRATION
WITHOUT COURT
INTERVENTION AND
WITHOUT BOND.

Deceased.

(Filed Dec. 19, 2016)
Judge Deborra E. Garrett
Petitioner STEPHANIE INSLEE has filed with
the Court a Petition for an Order Appointing Personal
Representative, Adjudicating Estate to be Solvent, and
Directing Administration Without Court Intervention
and Without Bond. The Court, being fully advised in
the premises, finds as follows:
1. MARGARET RAI-CHOUDHURY (hereinafter
"Decedent") died a resident of Whatcom County, Washington, on November 25, 2016 leaving property in
Whatcom County subject to probate.

App. 22
2. Decedent executed her Last Will and Testament on July 21, 2015, naming STEPHANIE INSLEE
as Personal Representative of her estate. The original
will has not yet been located. However, the Affidavit of
Witnesses of Steven D. Avery, Amanda Dykstra and
Melissa Sophusson, dated December 13 and 16, 2016
constitutes all of the testimony submitted in support
of the Last Will and Testament of Decedent.
The offered Will of Decedent should be established
as Decedent's Last Will and Testament and should be
admitted to Probate.
4. Pursuant to RCW 11.28.120(2)(e), the Court
finds that Petitioner is willing and qualified to act as
Personal Representative of Decedent's estate. Petitioner shall be appointed to serve without bond.
Decedent was survived by the following heirs,
legatees, and devisees:
Name and Address

Relationship Age

Khashon Haselrig

Grandson

Adult

Friend

Adult

University of British Columbia
Linda Borland

The assets of the estate exceed its liabilities,
and the estate is fully solvent.
Decedent's estate is entitled to be administered without court intervention pursuant to RCW
11.68.011(1).

App. 23
Based on the foregoing Findings, it is hereby
ORDERED, ADJUDGED, AND DECREED as
follows:
The offered Will is established as Decedent's
Last Will and is admitted to probate;
The Affidavit of Attestation of Steven D. Avery,
Amanda Dykstra and Melissa Sophusson, dated December 13 and 16, 2016, in support of Decedent's Will
is certified as adequate to prove such Will;
STEPHANIE INSLEE is appointed Personal
Representative of decedent's estate and Letters Testamentary shall be issued upon the filing of an oath;
The estate is solvent; and
The Personal Representative may administer
the estate without the further intervention of the
Court and is authorized to administer the estate, including the transfer of all property of the estate, without bond and without further Order of the Court.
DATED December 19, 2016
BY THE COURT:
ALFRED L HEYDRICH
Court Commissioner

App. 24
Presented by:
AVERY ELDER LAW P.S.
Steven D. Avery
STEVEN D. AVERY, WSBA #35262
Attorney for Petitioner STEPHANIE INSLEE

App. 25
IN THE SUPERIOR COURT OF
THE STATE OF WASHINGTON IN AND
FOR WHATCOM COUNTY
In re the Estate of:
MARGARET RAICHOUDHURY,
Deceased.

No. 16 4 00659 4
LAST WILL AND TESTAMENT OF MARGARET
RAI-CHOUDHURY
(Filed Dec. 19, 2016)
Judge

Attached hereto and incorporated herein by reference is the LAST WILL AND TESTAMENT of MARGARET RAI-CHOUDHURY, dated July 21, 2015.

LAST WILL AND TESTAMENT
OF
MARGARET RAI-CHOUDHURY
ARTICLE 1
DECLARATIONS
I, MARGARET RAI-CHOUDHURY, a resident of
Whatcom County, Washington, being of sound mind,
competent, and not acting under the undue influence
or duress of any person whomsoever, do hereby make,
publish and declare:
1.1 TESTAMENTARY INTENT: This document is
my Last Will and Testament and in making it, I revoke

App. 26
all other Wills and Codicils that I have previously
made.
1.2 FAMILY DECLARATIONS: I declare that I am
over eighteen years of age and a citizen of the United
States. Although I was currently married to PROSENJIT RAI-CHOUDHURY as of the date this Will was
signed, I am filing for dissolution of marriage to divorce
PROSENJIT RAI-CHOUDHURY. It is my intention by
this document not to leave any of my separate property
or any interest in my share of community or quasicommunity property to my spouse, PROSENJIT RAICHOUDHURY. I have one (1) adult child now living:
INDIRA RAI-CHOUDHURY. It is my intention by this
document not to leave any portion of my estate whatsoever to INDIRA RAI-CHOUDHURY. I do not have
any children now deceased with issue living. Except as
provided below, I make no provision in this Will for any
child who survives me, whether named herein or hereafter born or adopted, nor for the descendants of any
child who does not survive me.
1.3 IDENTIFICATION OF PROPERTY: I intend
by this Will to dispose of my separate property, and,
any interest I may have in community or quasicommunity property.
1.4 GIFTS BY LIST: At my death, I may have prepared a handwritten and/or signed list defining the
persons to whom I wish certain items of tangible personal property to pass. I intend that list to conform to
RCW 11.12.260 as a consequence of which the property
listed thereon shall pass in accordance with such list.

App. 27
ARTICLE 2
GIFTS
2.1 SPECIFIC BEQUESTS:
I give to LINDA BORLAND of Bellingham, Washington ten thousand dollars ($10,000.00).
2.2 ESTATE RESIDUE: I give, devise and bequeath
the rest, remainder and residue of my estate, of whatsoever nature and wheresoever situated to the following:
Fifty percent (50%) shall pass to the Univeristy of British Columbia (UBC) to be awarded as scholarships to
medical students at UBC who are Canadian citizens,
have financial need, and have a desire to help the poor.
Fifty percent (50%) shall pass to the then-trustee of the
KHASHON HASELRIG Grandchild's Trust for the
benefit of my grandson KHASHON HASELRIG to be
distributed pursuant to Article 3 below. If KHASHON
HASELRIG does not survive me, his share shall pass
to the Univeristy of British Columbia to be awarded as
scholarships to medical students at UBC who are Canadian citizens, have financial need, and have a desire
to help the poor.
Accordingly, only for the purposes of determining
the residuary distribution, if a beneficiary receives an
amount outside of probate through a nonprobate distribution, that amount will be added to the total assets
in my probate estate and that beneficiary's distribution of probate assets will be proportionately smaller
than those beneficiaries who did not receive a

App. 28
nonprobate distribution. For example, in the event I
had a life insurance policy of $10,000 naming "A" as a
beneficiary and "A" and "B" were equal beneficiaries
under my residuary clause with a net probate estate of
$90,000, then "A" would receive the life insurance of
$10,000 plus $40,000 from the probate estate and "B"
would receive $50,000 from the probate estate.
ARTICLE 3
GRANDCHILD'S TRUST
3.1 GRANDCHILD'S TRUST: I give, devise and bequeath the rest, remainder and residue of my estate, of
whatsoever nature and wheresoever situated, to
STEPHANIE INSLEE of Inslee, Maxwell & Associates, as Trustee, in trust, under the terms and conditions and uses and purposes herein set forth.
The Trustee shall hold the trust estate as a separate trust for KHASHON HASELRIG so long as
KHASHON HASELRIG is living. From the income and
principal of the Trust, the Trustee may make discretionary distributions for the support, health and education of the minor beneficiary named herein.
Notwithstanding the above directions, within the
limitations of the funds available and considering the
requirements of the other beneficiaries and descendants, the Trustee is authorized to assist each beneficiary, regardless of age, in acquiring a college or trade
school, and if desired, a professional education; provided that all distributions to or for any beneficiary for
educational benefits exceeding the ordinary four year

App. 29
college course or its equivalent shall be charged without interest as an advancement against such beneficiary's share of any subsequent division of the trust as
described in subparagraph C. below.
The Trustee shall distribute five percent (5%) of
the principal and interest of the trust to KHASHON
HASELRIG each year on January 1, or as soon thereafter as possible, until such time as no funds remain in
the trust.
The following administrative provisions shall apply to this Trust:
Unequal Benefits. The Trustee need not apportion discretionary distributions and benefits equally,
but may consider all individual circumstances.
Beneficiaries Statements. The Trustee may request and rely upon written statements from the beneficiaries, their parents or guardians, as to income
resources and the other considerations identified
above, and suspend benefits during any period a requested statement is not furnished.
Tangible Personal Property. The Trustee, in
his/her discretion, may retain trust assets which are
tangible personal property which he/she believes may
have sentimental value to a child in which case he/she
shall distribute these assets equitably to him/her at
such time or time as he/she thinks appropriate.
Retention of Assets. The Trustee shall have
full power and authority to retain any asset received
from my estate in the same form in which it is received.

App. 30
Payment of Expenses. The Trustee may, in
his/her sole discretion, pay all or part of the expenses
of last illness and funeral upon the death of a beneficiary, his/her spouse or issue.
Distributions to Another for a Beneficiary. The
Trustee, in the exercise of his/her discretion, may apply
benefits directly for the benefit of a beneficiary, pay the
same to the custodian or guardian of the beneficiary or
directly to the beneficiary. The receipt showing any of
these shall be full and sufficient discharge of the Trustee unless the amount involved is so large that the
course of action is unreasonable under the circumstances.
Undistributed Income. Income accrued and
undistributed may, at the discretion of the Trustee, be
added to the principal of the trust.
Principal and Income. The Trustee shall have
discretion to determine what is principal or income,
which authority shall specifically include the right to
make any adjustments between principal and income
for premiums, discounts, depreciation or depletion.
Accounting. The Trustee shall render an annual statement of account to the beneficiary of this
Trust, or during his/her minority to his/her guardians.
Such statement shall set forth all receipts and disbursements in connection with this trust during the
accounting period, and shall show the assets then held
in trust hereunder. The Trustee, to the extent permitted by law, shall be relieved from compliance with the
obligations of any and all Trustee's accounting statutes

App. 31
now or at any time hereafter in effect; provided, however, that any trustee of this trust, or any adult beneficiary or guardian of a minor beneficiary, may invoke
such statutes at any time.
Reliance on Advice of Counsel: Agents. The
Trustee shall be fully protected in relying upon the advice of legal counsel on questions of law and shall not
be liable for any loss or damage caused by an agent
selected by the Trustee if reasonable care shall have
been exercised in selecting and retaining such agent or
attorney.
Spendthrift Provision. No interest in this
trust estate shall vest in any beneficiary until actually
paid to him/her, nor shall the same be liable for his/her
debts or subject to the process or seizure of any court
of subject to bankruptcy proceedings, or any process
whatsoever. No beneficiary hereunder shall have the
power to anticipate, assign, alienate, or encumber his
interest in the trust. In the event any beneficiary cannot receive and enjoy benefits of this trust which would
ordinarily be distributable to him/her, they may be
held by the Trustee temporarily, or distributed to any
other beneficiary or beneficiaries hereunder, as the
Trustee shall elect. Any such payment over to any
other beneficiary shall be final and conclusive upon all
parties claiming hereunder.
Resignation. Any trustee may resign upon
thirty (30) days written notice to the beneficiaries or
their parents or guardians. If there is no successor
trustee named herein, or if that successor trustee is

App. 32
unable or unwilling to so serve, then the resigning
trustee shall appoint, with the consent of the beneficiaries, or their guardian, a successor trustee. If the resigning trustee is unwilling to appoint a successor, or
dies or is otherwise unable to make such an appointment, then any beneficiary may petition a court of competent jurisdiction for the appointment of a successor
trustee, giving all beneficiaries or their parents or
guardians at least fifteen (15) days written notice of
the time and place of the hearing. Notices may be sent
by certified mail, return receipt requested.
13. General Powers. In addition to the foregoing,
the Trustee shall have full power and authority to pay
the expenses of the Trust lawfully chargeable to the
trust estate; to pay himself/herself reasonable compensation for services as trustee including extra compensation for any extraordinary services; to vote at
corporate meetings by proxy, with or without powers of
substitution; to determine whether any transaction, if
consummated, would violate, or might reasonably be
expected to violate, any securities law, and to refrain
from action accordingly; to appoint an ancillary trustee
or agent to facilitate management of assets located in
another state or foreign country; to merge this trust
with any other trust having comparable provisions if
the trustee believes the same would result in an economy of administration and would not be to the substantial disadvantage of any beneficiary; to have all
the powers, rights and duties granted by Washington
statutes which are not inconsistent with the express
provisions of this trust, as well as all amendments to

App. 33
such statutes; and to exercise all powers granted by
law.
Rule Against Perpetuities. If any provision
hereof violates the rule against perpetuities, that portion of the trust subject to such provision shall be considered to be limited to and administered as herein
directed for the period permitted by law, and one (1)
day prior to the end of such period such part of this
trust estate so affected shall go in fee simple to the beneficiary then actually enjoying the same.
Pronouns. The word "trustee" as used herein
shall refer to sole or co-trustees, to original, alternate
or successor trustees, to individual or corporate trustees, as may be appropriate in the context.
Successor Trustee. If STEPHANIE INSLEE
of Inslee, Maxwell & Associates is unable to serve as
trustee, I hereby nominate CINDY MAXWELL of
Inslee, Maxwell & Associates as the First Successor
Trustee.
ARTICLE 4
OFFICE OF PERSONAL REPRESENTATIVE
4.1 NOMINATIONS: I nominate as Personal Representative and as Successor Personal Representatives
of this Will those named below. Each Successor Personal Representative shall serve in the order designated if the prior designated Personal Representative
fails to qualify or ceases to act.

App. 34
Personal
Representative:
Successor Personal
Representative:

STEPHANIE INSLEE of
Inslee, Maxwell & Associates
CINDY MAXWELL of Inslee,
Maxwell & Associates

4.2 BOND WAIVER: I request that the court not require bond of any Personal Representative nominated
in this Will.
4.3 NON-INTERVENTION: I request that this Will
and my estate be treated without the intervention of
any court as is provided under the laws of any state
where this Will may be filed for probate. The nonintervention powers in this Article shall be unrestricted.
4.4 RETAIN ASSETS AND EXCULPATION: The
Personal Representative shall have the power to retain
any asset of the estate, including unproductive, speculative, or fluctuating assets. The Personal Representative shall not be liable for any resulting losses unless
he or she acts in bad faith, willful misconduct, or gross
negligence.
4.5 SELL ASSETS: The Personal Representative
shall have the power to sell, with or without notice, at
either public or private sale, for cash or terms, any
property of my estate as the Personal Representative,
in the Personal Representative's reasonable discretion,
considers necessary for the proper administration and
distribution of my estate.

App. 35
4.6 LEASE PROPERTY: The Personal Representative shall have the power to lease all or any property
of my estate on such terms that the Personal Representative considers proper.
4.7 DISTRIBUTION OF PROPERTY - IN KIND,
NON PRO-RATA, AT DATE OF DISTRIBUTION
VALUES: The Personal Representative shall have the
power to determine what property of my estate shall
be allocated to the shares, parts, or bequests in selecting property for distribution or satisfaction of any bequest. Further, the Personal Representative may
satisfy any general pecuniary bequest, except when
specifically directed otherwise, by cash or in kind, or
partly in each, with property distributed in kind valued at the date of distribution.
4.8 FACILITY OF PAYMENT: In making distributions to a minor, to a person under legal disability, or
to a person not adjudicated incompetent but who, by
reason of illness or mental or physical disability, is in
the opinion of the Personal Representative unable to
manage the distribution properly, then the Personal
Representative in his or her reasonable discretion
shall pay such distribution in any of the following
ways: (1) to the beneficiary directly, (2) to the legally
appointed guardian of the beneficiary, (3) to a custodian for the beneficiary under the Uniform Transfers
to Minors Act (see following paragraph), (4) to a Trust
for the benefit of the beneficiary, or (5) to an adult relative or friend in reimbursement for amounts properly
advanced for the benefit of the beneficiary.

App. 36
In the event any of my beneficiaries is under the
age of twenty-five (25) years at the time of distribution
and no Trust is provided, my Personal Representative
shall designate a Custodian of his or her share under
the Uniform Transfers to Minors Act, to be held and
applied on the beneficiary's behalf until the beneficiary
reaches the age of twenty-five (25) years, or any later
age then provided for under the Uniform Transfers to
Minor's Act of the State of Washington, as amended.
The Custodian may make discretionary distributions
for the health, education, welfare, and support of the
beneficiary. In no event shall the Custodian be required by the Court to post any bond whatsoever.
4.9 PURCHASE OF ESTATE PROPERTY BY
BENEFICIARY, PERSONAL REPRESENTATIVE: Any beneficiary of my estate, even when acting
as Personal Representative, shall have the power to
purchase or exchange assets for assets of my estate or
any fractional interest for adequate consideration.
4.10 PAYMENTS OF EXPENSES, DEBTS AND
TAXES: My Personal Representative shall pay all expenses of my estate including but not limited to reasonable funeral, burial or interment expenses and
expenses associated with delivery and transportation
of my personal property gifts; all debts of my estate;
and, all estate, inheritance and succession taxes assessed by reason of my death, whether attributable to
property passing under this Will or outside it, from the
proceeds of my estate before distribution of the specific
bequests listed in paragraph 2.1.

App. 37
ARTICLE 5
GENERAL PROVISIONS
5.1 SURVIVORSHIP REQUIREMENT: For all
gifts under this Will, I require that the beneficiary survive me for thirty (30) days before entitlement to such
gift.
5.2 NO CONTEST: If a beneficiary named under
this Will or one of my beneficiaries at law shall in any
manner contest or attack this Will or any of its provisions, then in such event any share or interest in my
estate given or passing to such contestant is hereby revoked and shall be disposed of in the same manner provided herein as if such contestant had predeceased me.
This paragraph shall apply in like manner to all trusts
established under this Will and to all trust beneficiaries. This paragraph shall not be construed to apply to
any action brought in good faith to interpret a provision of this Will which may be unclear or ambiguous.
5.3 DEFINITIONS: As used in this Will, the following terms shall mean:
Reference to children, issue and descendants
shall include adopted persons and persons
hereafter born unless the context requires
otherwise.
The masculine, feminine, or neuter gender
and the singular or plural number shall each
include the others whenever the context indicates.

App. 38
Clause headings are for reading convenience
and shall be disregarded when construing this
Will.
ARTICLE 6
EXECUTION
6.1 SIGNATURE CLAUSE: IN WITNESS WHEREOF, I have hereunto set my hand and published and
declared this as my Last Will and Testament at Bellingham, Washington, on July 21, 2015.
/s/ Margaret Rai-Choudhury
MARGARET RAI-CHOUDHURY
5.2 ATTESTATION CLAUSE: The Testator, MARGARET RAI-CHOUDHURY, declared to us, the undersigned, that this instrument consisting of nine (9)
typewritten pages, including the page signed by us as
witnesses, was the Testator's Last Will and Testament
and requested us to act as witnesses to it. The Testator
thereupon signed this Will in our presence on July 21,
2015, all of us being present at the same time. We now
subscribe our names as witnesses at the Testator's request, in the Testator's presence, and in the presence
of each other.
We declare under penalty of perjury that the foregoing is true and correct.
/s/ Melissa Sophusson
Signature

/s/ Amanda Dykstra
Signature

App. 39
/s/ Melissa Sophusson
Printed Name of
Witness

/s/ Amanda Dykstra
Printed Name of
Witness

Address:
4200 Meridian St.,
Ste. 103
Bellingham, WA 98226

Address:
4200 Meridian St.,
Ste. 103
Bellingham, WA 98226

AFFIDAVIT OF ATTESTING WITNESSES
TO THE WILL OF
MARGARET RAI-CHOUDHURY
STATE OF WASHINGTON )
) ss.
COUNTY OF WHATCOM )
Each of the undersigned attesting witnesses, after
being sworn, on oath states:
Request of Testator: MARGARET RAICHOUDHURY, testator herein, requested that all attesting witnesses make this affidavit.
Execution: The Will to which this affidavit is
attached was executed by the above-named testator on
July 21, 2015 at Bellingham, Washington.
Declarations: Immediately prior to execution,
the testator declared the document to be her Last Will
and Testament and requested the undersigned witnesses to subscribe their names.

App. 40
Signatures: The testator signed the document
in the presence of all witnesses, and the witnesses attested the execution by subscribing their names in the
presence of the testator and of each other.
Competency: At the time of execution of the
Will: (a) the testator appeared to be of sound mind, of
legal age, and acted freely without any duress or undue
influence, and (b) the witnesses were each competent
and of legal age.
/s/ Melissa Sophusson

/s/ Amanda Dykstra

Print
Print
Name: Melissa Sophusson Name: Amanda Dykstra
Address:
4200 Meridian St.,
Ste. 103
Bellingham, WA 98226

Address:
4200 Meridian St.,
Ste. 103
Bellingham, WA 98226

SUBSCRIBED AND SWORN before me on July
21, 2015.
/s/ Steven D. Avery
Notary Public
Steven D. Avery
State of Washington
Notary Public in and for
the State of Washington
STEVEN D. AVERY
Residing in Bellingham,
MY COMMISSION
Washington
EXPIRES
My commission expires:
1/22/2018
1/22/2018

App. 41
COURT'S CERTIFICATE
The foregoing affidavit in support of the documents offered as the Will of the above named Testator was filed
on this date and accepted as proof of the above mentioned Will, pursuant to authority of RCW 11.20.0 0.
Date: 12/19/16

/s/ Raquel Montoya L
Probate Judge
AVERY ELDER LAW, P.S.
4200 Meridian St., Ste. 103
Bellingham, Washington 98226
(360) 325-2550
www.averyelderlaw.corn

App. 42
Westford FUNERAL HOME & CREMATION SERVICE
SINCE 1907

Certification of the Right to Control Disposition

Designated Agent of the Decedent: Yes
No ❑
Name: Stephanie Inslee
f SI1
Initial Initial Initial
By marking no, I/we declare that no witnessed document exists, signed by the deceased prior to death, appointing any person or persons, with the responsibility
to make or control funeral and or disposition arrangements to the best of my/our knowledge.
Surviving Spouse or Registered Domestic Partner:
Yes ❑ No ❑
Name:
Initial
Children (including legally adopted): Yes ❑ No ❑
Name of Surviving Children:
Initial
Name:

Name:

Name:

Name:

Name:

Name:

Name:

Name:

Parents: Yes ❑ No
Surviving:

❑
Initial

Name:
Siblings: Yes ❑ No
Surviving:
Name:

Number. of Parents
Name:

❑

Number of Siblings
Initial
Name:

App. 43
Name:

Name:

Name:

Name:

A court-appointed guardian for the person at the time
of the person's death.
Court-appointed guardian: Yes ❑ No
Name of Guardian:
More Responsible Party: Yes ❑ No

❑
Initial

❑
Initial

Most Responsible Party:
Important please read and check the above answers carefully. I hereby certify that the above
information is true and correct to the best of my
knowledge. I understand that the funeral home
is relying on my answers to determine who has
the right to control disposition.
Signature: /s/ Stephanie Inslee Signature:
Signature:

Signature:

Date of Signature:
Westford FUNERAL HOME & CREMATION SERVICE
SINCE 1907
1301 Broadway, Bellingham, WA 98225 — (360) 734-1717
Viewing Complete MI
AUTHORIZATION FOR CREMATION
IDENTITY: The undersigned hereby requests and authorize Westford Funeral Herne, on behalf of, in accordance with and subject to the rules and regulations
of Mount Vernon, to cremate the remains of:

App. 44
NAME Margaret Rai-Choundhury
First
Middle

Last

DATE OF BIRTH: 3/19/1933 DATE OF DEATH:
11/25/2016 Est. Wt.
RELEASE TO:
Cremation Containers: Cremation containers with
handles, or other devices, that inhibit the placement of
the container into the cremation chamber will have the
handles and/or other devices removed and discarded.
By signature below, the undersigned permits crematory personnel to make such modification to the container prior to cremation.
PROSTHETIC OR ARTIFICIAL DEVICES: In the
event the above named deceased has a heart pacemaker, YES
or NO BSI or radioactive seed implant Yes
),
or NO NS] (Date of implant:
or any other prosthetic or artificial device implanted or
attached which may damage the crematory equipment
or injure crematory personnel, the undersigned agrees
to inform the funeral home of the presence of such device and further authorizes the crematory to remove
such device(s) before cremation is commenced. Should
the undersigned neglect to give proper notice of the
presence of such device(s), the undersigned agrees to
accept liability and responsibility for any damage or
injury resulting from the presence of such device(s).
1. {SI] (Initial here) I have read the disclosure information on the reverse of this form and understand the cremation process.
or

App. 45
(Initial here): I have declined to read the
disclosure information.

rsii (Initial here) Due to the nature of the cremation process, any personal possessions or materials such as dental gold and silver, or jewelry (as well
as body prosthesis or dental bridgework) that are
left with the Decedent and not removed from the casket or container prior to cremation may be destroyed
and become non-recoverable. If not destroyed, the
crematory is authorized to dispose of such material
at its sole discretion. The Authorizing Agent understands the arrangements must be made with the Funeral Home to remove any such possessions or
valuables prior to the time that the Decedent is
transported to the Crematory.
Recoverable remains in excess of the capacity of the
urn or temporary container, ordered by me are to be
placed in a separate container for disposition as directed by me or upon written request of family may be
disposed of by Westford Funeral Home in such manner
as it deems advisable.
SIGNATURES: The undersigned certifies and represents that he or she has the full legal right to make
such authorization as a result of closest family lineage,
or by Last Will and Testament of the above named deceased. I further agree that I will indemnify and hold
harmless Westford Funeral Home and its employees
harmless for any liability on account of said authorization, cremation, and delivery.

App. 46
x /s/ Stephanie Inslee
Signature
Street

City

Executor
Relationship
State

11/30/16
Date
Zip

x
Signature

Relationship

Date

Signature

Relationship

Date

Signature

Relationship

Date

x

